     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, S.W., Suite 3T41
                                                                          Atlanta, GA 30303



November 4, 2009

Report Number: A-04-08-04025

Mr. Bruce W. Hughes, President and Chief Operating Officer
Palmetto Government Benefits Administrators
2300 Springdale Drive
BLDG One, Mail Code: AG-A03
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Audit of Palmetto Government Benefits Administrators’
Durable Medical Equipment Regional Carrier Final Administrative Cost Proposals for Fiscal
Year 2007.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at 404-
562-7800 or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through
email at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-08-04025 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce W. Hughes


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 AUDIT OF PALMETTO GOVERNMENT
BENEFITS ADMINISTRATORS’ DURABLE
  MEDICAL EQUIPMENT REGIONAL
CARRIER FINAL ADMINISTRATIVE COST
  PROPOSAL FOR FISCAL YEAR 2007




                         Daniel R. Levinson
                          Inspector General

                          November 2009
                          A-04-08-04025
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). As a part of the Part B program, the
Act provides for the coverage of Durable Medical Equipment (DME). The Centers for Medicare
& Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims. The contracts provide for reimbursement of
allowable administrative costs incurred in processing Medicare claims.

During the audit period, which covered the period October 1, 2006, through September 30, 2007,
CMS contracted with Palmetto Government Benefits Administrators (Palmetto) to serve as a
Medicare contractor. Palmetto processed DME claims for Alabama, Arkansas, Colorado,
Florida, Georgia, Kentucky, Louisiana, Mississippi, New Mexico, North Carolina, Oklahoma,
Puerto Rico, South Carolina, Tennessee, Texas, and the Virgin Islands. CMS terminated the
DME claims processing contract on June 1, 2007. CMS guidelines require contractors to file
costs incurred prior to the contract termination as administrative costs and to file costs incurred
subsequent to the termination on a separate termination voucher. Palmetto reported
administrative costs totaling $39,341,092 in its Final Administrative Cost Proposal (FACP) for
fiscal year 2007. (See Appendix A.)

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto reported on its
DME FACP were allowable, allocable, and reasonable in accordance with part 31 of the Federal
Acquisition Regulation (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, contrary to CMS guidelines, Palmetto: (1) did not submit a
budget for its contract termination costs and (2) claimed $733,006 on its FACP for employee
severance payments that resulted from termination of the DME claims processing contract.

RECOMMENDATIONS

We recommend that Palmetto:

      submit a termination cost budget to CMS for the costs related to the termination of the
       DME claims processing contract and

      follow CMS guidelines in the future when terminating contracts including claiming the
       costs on a termination voucher.




                                                 i
PALMETTO COMMENTS

In its written comments to our report, Palmetto agreed with our findings and
recommendations and stated that it would submit a termination cost budget to CMS and
would use a termination voucher in the future. Palmetto’s comments are included in their
entirety as Appendix C.




                                          ii
                                                    TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION                 ................................................................................................................ 1

        BACKGROUND ........................................................................................................... 1

        OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                          1
             Objective ............................................................................................................          1
             Scope ................................................................................................................          1
             Methodology ......................................................................................................              2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

        NO TERMINATION BUDGET SUBMITTED............................................................ 3

        TERMINATION COSTS CLAIMED ON FINAL
          ADMINISTRATIVE COST PROPOSAL................................................................ 3

        RECOMMENDATIONS............................................................................................... 3

        PALMETTO COMMENTS........................................................................................... 3

APPENDIXES

        A – FINAL ADMINISTRATIVE COST PROPOSAL COSTS CLAIMED

        B – COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
             AUTHORIZATION

        C – PALMETTO COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). As a part of the Part B program, the
Act provides for the coverage of Durable Medical Equipment (DME). The Centers for Medicare
& Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (FACP) reporting Medicare costs. Once CMS
accepts an FACP, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

During our audit period (FY 2007), CMS contracted with Palmetto Government Benefits
Administrators (Palmetto) to serve as a Medicare contractor. Palmetto processed DME claims
for Alabama, Arkansas, Colorado, Florida, Georgia, Kentucky, Louisiana, Mississippi, New
Mexico, North Carolina, Oklahoma, Puerto Rico, South Carolina, Tennessee, Texas, and the
Virgin Islands.

CMS terminated the DME claims processing contract with Palmetto on June 1, 2007. CMS
guidelines require contractors to file costs incurred prior to the contract termination as
administrative costs and to file costs incurred subsequent to the termination on a separate
termination voucher. The contract between Palmetto and CMS set forth principles of
reimbursement for administrative costs. The contract cited the Federal Acquisition Regulation
(FAR) (48 CFR chapter 1) as regulatory principles to be followed for application to the Medicare
contract and provided additional guidelines for specific cost areas.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto reported on its
DME FACP were allowable, allocable, and reasonable in accordance with part 31 of the FAR
and the Medicare contract.

Scope

Our audit covered the period October 1, 2006, through September 30, 2007 (FY 2007). For this
period, Palmetto reported administrative costs to CMS totaling $39,341,092. This total included
pension costs of $1,926,579 that we excluded from this review because pension costs will be the
subject of a separate audit.



                                                1
In planning and performing our audit, we reviewed Palmetto’s internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. We conducted
this analysis to accomplish our objective and not to provide assurance on the internal control
structure.

We conducted fieldwork at Palmetto’s office in Columbia, South Carolina, from July 2008
through April 2009.

Methodology

To accomplish our objective, we:

      reviewed applicable Medicare laws, regulations, and guidelines;

      reconciled the FY 2007 cost proposal to Palmetto’s accounting records;

      performed analytical tests of Palmetto’s trial balances;

      selected and reviewed a judgmental sample of invoices, expense vouchers, expense
       reports, and journal entries;

      interviewed Palmetto officials about their cost accumulation processes for cost proposals
       and gained an understanding of their cost allocation systems;

      reviewed payroll journals, corporate bonus plans, and personnel records;

      selected a judgmental sample of 30 individual employee pay periods and verified that the
       amount paid was in accordance with the employee’s pay rate, that the salary was charged
       to the correct cost center, and that the number of hours paid agreed with the time sheets;

      selected a sample of the 30 highest employee severance payments and, using Palmetto’s
       severance policy, recalculated the amount paid to verify that the severance paid to these
       employees was in accordance with the severance policy; and

      tested costs for allowability, allocability, and reasonableness.

   We conducted this performance audit in accordance with generally accepted government
   auditing standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
   based on our audit objectives. We believe that the evidence obtained provides a reasonable
   basis for our findings and conclusions based on our audit objective.




                                                 2
                         FINDINGS AND RECOMMENDATIONS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, contrary to CMS guidelines, Palmetto: (1) did not submit a
budget for its contract termination costs and (2) claimed $733,006 on its FACP for employee
severance payments that resulted from termination of the DME claims processing contract.

NO TERMINATION BUDGET SUBMITTED

Palmetto officials did not submit a budget to CMS for costs related to the termination of the
DME claims processing contract. Section 8.4 of CMS’s DME Regional Carrier (DMERC)
Workload Closeout Handbook states that “. . . once termination costs can be reasonably
estimated, a hardcopy of the termination budget should be submitted to the appropriate Regional
Office and to Central Office.”

TERMINATION COSTS CLAIMED ON FINAL ADMINISTRATIVE COST PROPOSAL

On the FACP, Palmetto claimed $733,006 of severance payments to employees that resulted
from termination of the DME claims processing contract. Section 8.4 of CMS’s DMERC
Workload Closeout Handbook states that “[t]ermination costs are not to be included in the FACP;
only vouchers may be used to claim reimbursement of termination costs.” Palmetto accurately
computed and paid the $733,006 in accordance with its severance policy. Therefore, the costs are
allowable. We are only disclosing that Palmetto did not follow proper procedures in claiming the
costs.

RECOMMENDATIONS

We recommend that Palmetto:

      submit a termination cost budget to CMS for the costs related to the termination of the
       DME claims processing contract and

      follow CMS guidelines in the future when terminating contracts including claiming the
       costs on a termination voucher.

PALMETTO COMMENTS

In its written comments to our report, Palmetto agreed with our findings and recommendations
and stated that it would submit a termination cost budget to CMS and would use a termination
voucher in the future. Palmetto’s comments are included in their entirety as Appendix C.




                                                3
APPENDIXES
                  APPENDIX A: Palmetto GBA
Final Administrative Cost Proposal - Durable Medical Equipment
                Fiscal Year 2007 Costs Claimed


Salaries & Wages                      $        17,912,466

Fringe Benefits                                 8,233,494

Facilities or Occupancy                         2,500,337

EDP Equipment                                   2,101,738

Subcontracts                                    4,125,342

Outside Professional Services                     229,185

Telephone & Telegraph                             564,384

Postage & Express                               4,316,566

Furniture & Equipment                             296,961

Materials & Supplies                              647,155

Travel                                            450,977

Return on Investment                              110,546

Miscellaneous                                   1,654,804

Other                                                   0

Credits                                        (3,802,863)

Forward Funding                                         0

   Total Costs Claimed on FACP        $        39,341,092
                                   APPENDIX B: Palmetto GBA

                 Final Administrative Cost Proposal - Durable Medical Equipment

      Fiscal Year 2007 Comparison of Administrative Costs Claimed to Budget Authorization





                                                                                    Variance
                                           Budget               Administrative      Favorable
            Operation                    Authorization          Costs Claimed     (Unfavorable)
Program Management
Bills/Claims Payment                     $   18,454,665     $      16,907,778        $1,546,887
Appeals                                       3,661,400             4,001,882          (340,482)
Beneficiary Inquiries                           685,900             1,089,600          (403,700)
Productivity Investment                         178,000                     0           178,000
Provider Telephone Inquiries                  3,203,600             3,424,114          (220,514)
Provider Outreach & Education                   555,600               498,839            56,761
Credits                                      (3,893,600)           (3,787,719)         (105,881)
    Subtotal Program Management              22,845,565            22,134,494            711,071

Medicare Integrity Program
Medical Review                                  100,000                10,857               89,143
Medicare Secondary Payer Pre-Payment            167,500               172,852               (5,352)
Benefits Integrity                               64,000               104,346              (40,346)
Productivity Investment                      15,700,000            15,761,141              (61,141)
Medicare Secondary Payer Post-Payment            95,300                72,833               22,467
Provider Outreach & Education                   999,500             1,084,569              (85,069)
  Subtotal Medicare Integrity Program        17,126,300            17,206,598              (80,298)


  Totals                                 $   39,971,865     $      39,341,092             $630,773


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 1)
and Notification of Budget Approval (Supplement No. 12).
                          APPENDIX C: PALMETTO COMMENTS 





                                                                                                                            Bruce W . Hughes
                                                                                                             President and Chief Operating Officer




October 2 1, 2009


Peter 1. Barbera
Regional Inspector General
 for A udit Services
Office ofInspector General
Office of Audit Service s
61 Forsyth Street, S W. , Suite 3T41
Atlanta, Georgia 30303

Dear Mr. Barbera:

We are submitting this letter in resp::mse to Aucht Report A -04-08- 0402 S entitled "Audit of Palmetto
Government Benefits Administrators' Durable Medical Equipment Regional Carrier (DMERC) Final
Administrative Cost Proposal for Fiscal Year 2007."

The report contained the following reconunendations:

We reconunend that Palmetto :

       • submit a termination costs budget to eM S for the costs related to the termination of the 

         DME claims processing contract and 

       • follow eM S guidelines in the future when terminating contracts including claiming the 

         costs on a termination voucher. 


We agree with the report and the recommendations and will submit a termination cost budget to CMS and
take the actions necessary to foll ow the CMS guidelines in the future. We w ould like to point out that this
was an tulUsual situation since all work llllder our contract did not end completely at the time the DMERC
portion of the contract ended. We continued to submit an Interim Expenditure Report llllder contractor
number 885 for work performed under the National Supplier Clearing House and/or the Statistical Analysis
Durable Medical Equipment Regional Contractor contracts through Jlllle 2008. However, as stated, we will
use the termination voucher in the future.

Thank you for the opportunity to respond to the recommendations.

                                                               Sincerely,

                                                                   !Bruce W. Hughes!




                                                               I
                                       If'i'>W.I.palrretrogba .co m Post ctfice Bax 1 00134
                                                   ISO 9001· 200 0 ColurrtJi a, South Caroli na 29202-3134
